TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2007 Statutory Audit of
                      Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester
                           and Similar Designations



                                            July 3, 2007

                              Reference Number: 2007-40-112




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 3, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT



 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2007 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 200740006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 3707 and
 its own internal guidelines that prohibit IRS officers and employees from referring to taxpayers
 as Illegal Tax Protesters (hereafter referred to as ITP or Protester) or any similar designations.

 Impact on the Taxpayer
 Congress enacted RRA 98 § 3707 to prohibit the IRS from labeling taxpayers as ITPs or any
 similar designations. While the IRS has eliminated most such references, there are still some
 instances in which IRS employees refer to taxpayers as Protesters or similar designations in case
 narratives, which may stigmatize taxpayers and cause employee bias in future contacts with these
 taxpayers.

 Synopsis
 Prior to enactment of the RRA 98, taxpayers could be designated as ITPs if their tax returns or
 correspondence contained specific indicators of noncompliance with the tax law, such as the use
 of arguments that had been repeatedly rejected by the courts. Once taxpayers’ accounts were

 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                       Fiscal Year 2007 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations


coded with ITP indicators, certain tax enforcement actions were accelerated. The designation
was also intended to alert employees to be cautious so they would not be drawn into
confrontations with taxpayers. RRA 98 prohibits the IRS from using ITP or any similar
designations. The Treasury Inspector General for Tax Administration is required to annually
evaluate compliance with this prohibition.2
The IRS has not reintroduced past ITP codes on the Master File,3 and formerly coded taxpayer
accounts have not been assigned similar Master File designations. In addition, the IRS does not
have any current publications with Protester references and has removed the one remaining
reference from the Internal Revenue Manual.4 There were some references in case files. In
601 instances out of approximately 49.6 million records and cases, IRS employees referred to
taxpayers as ITPs or other similar designations in case
narratives.
                                                                     In some instances, IRS
Our Fiscal Year 2002 report noted employees were still          employees referred to taxpayers
using ITP or similar designations in their case narratives      as ITPs and similar designations
and recommended management reinforce that taxpayers                     in case narratives.
should not be referred to as Protesters or similar
designations and consult with the IRS Office of
Chief Counsel on the use of these designations.5 In August 2002, the IRS responded that it had
requested guidance from its Office of Chief Counsel regarding the designations. Once guidance
was received, a memorandum was to be issued to all employees reinforcing the importance of
not referring to taxpayers as Protesters. However, the Office of Chief Counsel did not agree that
employee use of ITP or a similar designation in a case narrative was a potential violation of the
law. We are in disagreement with IRS management over this issue and will continue to report
these instances of employees using Protester or similar designations in their case narratives. We
continue to believe the use of ITP or other similar designations in case narratives may stigmatize
taxpayers and cause employee bias in future contacts with these taxpayers. Electronic case
narratives are available to other IRS employees for future reference and may affect the opinions
and actions of employees working the taxpayers’ cases.
Notwithstanding their disagreement with our interpretation of the law, IRS management advised
us they have taken a conservative approach by implementing a policy that prohibits employees
from using Protester or any similar designations. In addition, they stated they will issue a
memorandum to all employees concerning this policy within the next few months.


2
  Internal Revenue Code § 7803(d)(1)(A)(v) (2000 Suppl. 2).
3
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
4
  A manual containing the IRS’ internal guidelines.
5
  Efforts Are Still Needed to Discourage the Use of Illegal Tax Protester and Similar Designations (Reference
Number 2002-40-162, dated September 2002).
                                                                                                                       2
                   Fiscal Year 2007 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations



Response
We made no recommendations in this report. In their response to the draft report, IRS
management disagreed that the references listed in the report are violations. However, because
they understand our concern with the use of “tax protester” in case narratives, they will issue a
memorandum to all employees to reinforce compliance with RRA 98 § 3707. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                    3
                          Fiscal Year 2007 Statutory Audit of Compliance With Legal
                          Guidelines Prohibiting the Use of Illegal Tax Protester and
                                             Similar Designations




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Illegal Tax Protester Codes Were Not Used on the
          Master File ....................................................................................................Page 3
          Internal Revenue Service Publications Do Not Contain
          Illegal Tax Protester References ...................................................................Page 3
          Illegal Tax Protester References Have Been Removed
          From the Internal Revenue Manual ..............................................................Page 4
          In Some Instances, Employees Used Illegal Tax Protester
          or Similar Designations in Case Narratives .................................................Page 5
          Alternative Methods That Avoid the Need for Illegal
          Tax Protester Designations Have Been Established to Address
          Tax Compliance Issues ................................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 17
         Fiscal Year 2007 Statutory Audit of Compliance With Legal
         Guidelines Prohibiting the Use of Illegal Tax Protester and
                            Similar Designations




                       Abbreviations

IRM             Internal Revenue Manual
IRS             Internal Revenue Service
ITP             Illegal Tax Protester
RRA 98          Internal Revenue Service Restructuring and Reform Act of 1998
SERP             Servicewide Electronic Research Program
                       Fiscal Year 2007 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1 Section
(§) 3707 prohibits the IRS from using Illegal Tax Protester (hereafter referred to as ITP or
Protester) or any similar designations. In addition, the law requires the removal of all existing
Protester codes from the Master File2 and instructs IRS employees to disregard any such
designation not located on the Individual Master File.3
Prior to enactment of the RRA 98, the IRS used the ITP Program to identify individuals and
businesses using methods that were not legally valid to protest the tax laws. Employees
identified taxpayers for referral to the Program when their tax returns or correspondence
contained specific indicators of noncompliance with the tax law, such as the use of arguments
that had been repeatedly rejected by the courts. There were tax protester coordinators who were
responsible for determining whether a taxpayer should be included in the ITP Program. If a
taxpayer was classified as a Protester, the taxpayer’s record was coded as such on the
Master File. Once a taxpayer’s account was coded, certain tax enforcement actions were
accelerated. The designation was also intended to alert employees to be cautious so they would
not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the ITP designation. There were many instances of taxpayers who subsequently complied with
the tax laws but continued to be labeled as Protesters. The concern was that this label could bias
IRS employees and result in unfair treatment.
Internal Revenue Code § 7803(d)(1)(A)(v)                               The Treasury Inspector General
(2000 Suppl. 2) requires the Treasury Inspector                           for Tax Administration is
General for Tax Administration to annually evaluate                     required to annually evaluate
compliance with the prohibition against using the ITP                     IRS compliance with the
or any similar designations. This is our ninth review                  prohibition against using ITP or
                                                                          any similar designations.
since Fiscal Year 1999. These reviews have identified
areas for improvement to help the IRS comply with the
Protester designation prohibition.
This review was performed in the National Taxpayer Advocate function and Office of
Chief Counsel in Washington, D.C.; the Small Business/Self-Employed Division in

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
3
  A database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 1
                  Fiscal Year 2007 Statutory Audit of Compliance With Legal
                  Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



New Carrollton, Maryland; and the Wage and Investment Division in Atlanta, Georgia, during
the period August 2006 through March 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                      Page 2
                   Fiscal Year 2007 Statutory Audit of Compliance With Legal
                   Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used ITP indicators on the Master File to accelerate
collection activity for taxpayers who were delinquent in filing tax returns or paying their taxes.
These indicators were also intended to alert employees that there might be problems encountered
when dealing with these types of taxpayers.
Congress was concerned about the use of the ITP designation because:
   •   Taxpayers were labeled as Protesters without regard to their filing obligations or
       compliance.
   •   Protester indicators were not always reversed when taxpayers became compliant with
       their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Protester designations from taxpayers’
accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported the IRS had removed the ITP codes from the Master File as
required by the law. Based on our analysis of approximately 1.2 million taxpayer accounts
coded for accelerated collection activity, the IRS has not reintroduced these Protester designation
codes on the Master File. The law also prohibits using any designation similar to ITP. We
reviewed approximately 57,000 taxpayer accounts formerly coded as Protesters on the
Master File and confirmed that the IRS had not input any other Master File designations similar
to ITP on these accounts.

Internal Revenue Service Publications Do Not Contain Illegal Tax
Protester References
To help promote compliance with RRA 98
§ 3707, IRS management issued directives
for employees to update various
publications to eliminate references to ITP
terminology and programs. Our reviews
prior to Fiscal Year 2002 identified several
publications that contained Protester
references. When notified of the problem,
the IRS had either revised the publication

                                                                                            Page 3
                       Fiscal Year 2007 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations



or labeled it as being obsolete. Our review of available publications on the Servicewide
Electronic Research Program (SERP),4 IRS public Internet web site (IRS.gov), Electronic
Publishing web site, and 2005 Federal Tax Products CD-ROM did not identify any current
Protester references. By eliminating the Protester references from its forms, documents, letters,
and training materials, the IRS prevents employees from using or following these outdated
references or guidelines.

Illegal Tax Protester References Have Been Removed From the
Internal Revenue Manual
In each of our eight prior reviews, we
identified ITP references throughout the
various electronic and paper formats of the
Internal Revenue Manual (IRM),5 the
Electronic Publishing web site, the IRM online,
the SERP, IRS.gov, CD-ROM, and the paper
IRM. The graphic to the right shows the
relationship between the Official IRM and the
various formats of it available to IRS
employees.
During our Fiscal Year 2006 review, we
reported there was still one unique ITP
reference throughout the various formats of the
IRM.6 This reference had been previously
identified and brought to the attention of Small
Business/Self-Employed Division management during our Fiscal Year 2005 review.7 In
response to both reports, the IRS stated it had initiated actions to remove this last remaining
Protester reference.
We again found the ITP reference in our current review and brought it to the attention of Small
Business/Self-Employed Division management, who immediately removed it from the IRM.
Removing all Protester references from the IRM will help avoid any inappropriate implication
that the use of this designation is permitted.


4
  An electronic researching tool containing many former paper research applications (e.g., publications, the Internal
Revenue Manual, the Probe and Response Guide).
5
  A manual containing the IRS’ internal guidelines.
6
  Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2006-40-098, dated July 13, 2006).
7
  Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2005-40-104, dated July 2005).
                                                                                                              Page 4
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



In Some Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
We found that, out of approximately 49.6 million records and cases, there were 601 instances in
which employees had referred to taxpayers as “tax protester,” “ITP,” “constitutionally
challenged,” or other similar designations in case narratives on the following computer systems.
    •   Automated Collection System:8 A review of approximately 2.6 million open cases
        identified 5 cases in which 4 employees used ITP or a similar designation when referring
        to specific taxpayers in the case narratives.
    •   Desktop Integration:9 A review of approximately 46.3 million open records identified
        278 cases in which 171 employees used ITP or a similar designation when referring to
        specific taxpayers in the case narratives.
    •   Integrated Collection System:10 A review of approximately 563,000 open cases identified
        292 cases in which 251 employees used ITP or a similar designation when referring to
        specific taxpayers in the case narratives.
    •   Taxpayer Advocate Management Information System:11 A review of approximately
        49,000 open cases identified 4 cases in which 4 employees used ITP or a similar
        designation when referring to specific taxpayers in the case narratives.12
    •   Taxpayer Information File:13 A review of approximately 110,000 open records identified
        22 cases in which 19 employees used ITP or a similar designation when referring to
        specific taxpayers in the Activity Code field.
We believe these references are prohibited by law. Figure 1 contains the number of ITP or
similar designations identified in computer system case narratives or the Activity Code field
during our Fiscal Years 2006 and 2007 reviews.




8
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
9
  Provides employees access to multiple IRS systems through their computers and allows for inventory management,
case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and electronic
referral generation.
10
   A computerized system used by Collection function employees to report taxpayer case time and activity.
11
   An electronic database and inventory control system used by Taxpayer Advocate Service employees.
12
   Due to some anomalies in the records provided by the IRS, any of our conclusions or opinions based on these data
are qualified. More information on this qualification can be found in Appendix I.
13
   Provides tax account information for taxpayers selected for the Integrated Data Retrieval System (the IRS
computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records).
                                                                                                           Page 5
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



Our Fiscal Year 2002 report noted IRS employees were still using ITP or similar designations in
their case narratives and recommended management reinforce that taxpayers should not be
referred to as Protesters or similar designations and consult with the IRS Office of Chief Counsel
on the use of these designations.16 In August 2002, the IRS responded that it had requested
guidance from its Office of Chief Counsel regarding the designations. Once guidance was
received, a memorandum was to be issued to all employees reinforcing the importance of not
referring to taxpayers as Protesters. However, the Office of Chief Counsel did not agree that
employee use of ITP or a similar designation in a case narrative was a potential violation of the
law. We are in disagreement with IRS management over this issue and will continue to report
these instances of employees using Protester or similar designations in their case narratives.
The statute states that officers and employees of the IRS shall not designate taxpayers as ITPs or
any similar designations. It further specifies that existing designations in the Master File must be
removed and any other designations made before the effective date of the statute, such as those
on paper records that have been archived, must be disregarded. Senate Committee on Finance
Report 105-174 (dated April 22, 1998), related to the RRA 98 § 3707 provision, stated the
Committee was concerned that taxpayers might be stigmatized by a designation as an “illegal tax
protester.” Based upon the language of the statute and the Senate Committee Report, we believe
IRS officers and employees should not label taxpayers as Protesters or similar designations in
any records, which include paper and electronic case files. Officers and employees should not
designate taxpayers as such because a designation alone contains a negative connotation and
appears to label the taxpayer. Given the continued use of these terms by employees, we believe
the IRS should reinforce to all its employees the importance of not referring to taxpayers as
Protesters or similar designations.
Despite its disagreement with our position on the matter, the IRS has taken some actions to
prevent ITP and similar designations from being used in case narratives. On October 11, 2002, it
issued an alert,17 reminding employees of the prohibition regarding the use of Protester or any
similar designations in case narratives. Some business units continue to remind employees of the
prohibition regarding the use of Protester or any similar designations. For example, the Wage
and Investment Division conducts periodic quality reviews for ITP use in its Automated
Collection System function and counsels employees who designate taxpayers as Protesters or
other similar designations. In addition, the Small Business/Self-Employed Division issued an
alert on May 6, 2005, reminding the employees in its Compliance service functions to refrain
from using Protester or any similar designations in case narratives. In December 2006, the
Small Business/Self-Employed Division Director of Collection Policy issued a memorandum to
all Collection Compliance Field Operations employees advising them to stop using Protester and
similar designations in any documentation and/or oral communications.

16
   Efforts Are Still Needed to Discourage the Use of Illegal Tax Protester and Similar Designations (Reference
Number 2002-40-162, dated September 2002).
17
   Only those employees that use the SERP would have had access to this alert.
                                                                                                           Page 7
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



In response to the recommendation in our Fiscal Year 2006 report, IRS management stated they
would issue a memorandum by June 15, 2007, to all employees to reinforce compliance with
RRA 98 § 3707.18 In addition, management stated they would work with Treasury Inspector
General for Tax Administration management to reconcile differences regarding the IRS’ legal
guidance and take actions as appropriate. We contacted IRS management to determine what
actions have been taken by them to resolve this issue. Management responded that, even though
they continue to disagree with our interpretation of the law, they have taken a conservative
approach by implementing a policy that prohibits employees from using Protester or any similar
designations. In addition, they stated that they are on track to issue a memorandum to all
employees concerning this policy within the next few months.

Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Have Been Established to Address Tax Compliance
Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using ITP or similar designations because alternative programs exist to address issues previously
handled by the ITP Program. These include:
     •   The Frivolous Return Program, which handles taxpayers who file tax returns based on
         some type of frivolous argument that justifies payment of little or no income tax. This
         would include filing a tax return claiming no income because paying taxes is voluntary,
         claiming to be a citizen of a State but not a citizen of the United States, etc.
     •   The Nonfiler Program, which handles taxpayers that refuse to file their required tax
         returns.
     •   The Potentially Dangerous Taxpayer/Caution Upon Contact Program, which handles
         taxpayers that have assaulted and/or threatened IRS employees.
Each of these Programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
ITP Program, each of the new Programs addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual Programs on a permanent basis, as was the case in
the ITP Program.



18
  Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2006-40-098, dated July 13, 2006).




                                                                                                            Page 8
                  Fiscal Year 2007 Statutory Audit of Compliance With Legal
                  Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



Our reviews over the past 8 years have not identified instances in which the ITP indicator was
needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. Management has also advised us that
prohibiting the use of the ITP designation has had no negative impact on collection or
examination activities.
Management’s Response: IRS management disagreed that the references listed in the report
are violations. However, because they understand our concern with the use of “tax protester” in
case narratives, they will issue a memorandum to all employees to reinforce compliance with
RRA 98 § 3707.




                                                                                        Page 9
                       Fiscal Year 2007 Statutory Audit of Compliance With Legal
                       Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 981 Section
(§) 3707 and its own internal guidelines that prohibit IRS officers and employees from referring
to taxpayers as ITPs (also referred to as Protester) or any similar designations. The Treasury
Inspector General for Tax Administration is required to annually evaluate compliance with the
prohibition against using ITP or any similar designations.2 Unless otherwise noted, our limited
tests of the reliability of data obtained from various IRS systems did not identify any errors. We
tested the reliability of the data by scanning the data received for blank, incomplete, illogical, or
improper data. In addition, we traced a judgmental sample for each data set to the source IRS
files to ensure accuracy. We did not perform any testing of internal controls over the systems
that were the sources of our data. To accomplish the objective, we:
I.       Determined if the ITP coding on the Master File3 was removed by reviewing all
         Accelerated Issuance Codes (Transaction Code 148) as of September 2006 for Business
         Master File4 records and Individual Master File5 records. We analyzed 179,900 Business
         Master File records and 1,033,525 Individual Master File records containing a
         Transaction Code 148 on the account.
         We also compared our historic computer extract of approximately 57,000 taxpayers
         designated as Protesters before the RRA 98 was enacted to our records with a
         Transaction Code 148 to determine if any new common codes were being used to classify
         the taxpayers as Protesters.
II.      Determined if the IRM6 contained ITP or any similar designations by performing key
         word searches of the IRS Electronic Publishing web site, the IRM online, the SERP,7
         IRS.gov, CD-ROM, and the paper IRM.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Internal Revenue Code § 7803(d)(1)(A)(v) (2000 Suppl. 2).
3
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
4
  A database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
5
  A database that maintains transactions or records of individual tax accounts.
6
  A manual containing the IRS’ internal guidelines.
7
  An electronic researching tool containing many former paper research applications (e.g., publications, the IRM, the
Probe and Response Guide).
                                                                                                           Page 10
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



III.    Determined if IRS publications contained ITP or any similar designations by performing
        key word searches of the SERP, IRS.gov, the IRS Electronic Publishing web site, and the
        IRS 2005 Federal Tax Products CD-ROM in October 2006.
IV.     Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the Integrated Collection System8 by securing a copy of the database and
        analyzing approximately 563,000 cases open as of October 2006 with history action dates
        between October 2005 and September 2006.
V.      Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the Automated Collection System9 by securing a copy of the database10 and
        analyzing 2,618,670 cases open as of October 2006 with history action dates between
        October 2005 and September 2006.
VI.     Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the Taxpayer Advocate Management Information System11 by
        securing a copy of the database and analyzing 48,513 open cases with activity between
        October 2005 and September 2006.
        During our limited validation of the Taxpayer Advocate Management Information
        System data, we found some anomalies in the records provided to us. While we are
        confident that we received all of the requested records, text information in some of the
        data is missing. Based on discussions with the IRS programmers, we determined these
        anomalies could not be easily corrected within the time period of our review. As a result,
        any Treasury Inspector General for Tax Administration conclusions/opinions based on
        these data are qualified.
VII.    Determined if employees were using ITP or any similar designations within the taxpayer
        case narratives on Desktop Integration12 by securing a copy of the database and analyzing
        46,282,566 open records with activity between October 2005 and September 2006.




8
  A system used by Collection function employees to report taxpayer case time and activity.
9
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
10
   The Automated Collection System database did not always contain employee identifying information from which
we could determine the number of employees using ITP or a similar designation. We assumed each comment was
made by a different employee.
11
   An electronic database and inventory control system used by Taxpayer Advocate Service employees.
12
   Provides employees access to multiple IRS systems through their computers and allows for inventory
management, case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and
electronic referral generation.
                                                                                                         Page 11
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



VIII.   Determined if employees were using ITP or any similar designations within the Activity
        Code field on the Taxpayer Information File13 by securing a copy of the database and
        analyzing 109,877 open records with activity between October 2005 and
        September 2006.
IX.     Determined if the IRS is using any Frivolous Return Program14 codes as replacements for
        ITP designations by reviewing guidance provided for the Frivolous Return Program and
        interviewing its Program Coordinator.
X.      Determined if the IRS Nonfiler Program15 is in compliance with the provisions
        established by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler
        Program and interviewing its Program Coordinator.
XI.     Determined if there is any relationship between ITP designations and Potentially
        Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File by
        reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program16 and interviewing its Program Coordinator.
XII.    Determined the current status of IRS corrective actions resulting from prior Treasury
        Inspector General for Tax Administration audits.




13
   Provides tax account information for taxpayers selected for the Integrated Data Retrieval System (the IRS
computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records).
14
   The Frivolous Return Program handles taxpayers who file tax returns based on some type of frivolous argument
that justifies payment of little or no income tax. This would include filing a tax return claiming no income because
paying taxes is voluntary, claiming to be a citizen of a State but not a citizen of the United States, etc.
15
   The Nonfiler Program handles taxpayers that refuse to file their required tax returns.
16
   The Potentially Dangerous Taxpayer/Caution Upon Contact Program handles taxpayers that have assaulted and/or
threatened IRS employees.
                                                                                                           Page 12
                 Fiscal Year 2007 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Director (Acting)
Alan Lund, Audit Manager (Acting)
David Hartman, Lead Auditor
Craig Pelletier, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                   Page 13
                  Fiscal Year 2007 Statutory Audit of Compliance With Legal
                  Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Department of the Treasury, Director, Office of Accounting and Internal Control MDA
Department of the Treasury, Assistant Director, Office of Accounting and Internal Control
MDA
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Chief Information Officer OS:CIO
Office of Internal Control OS:CFO:CPIC:IC
Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Chief Information Officer OS:CIO:SM:PO
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 14
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. While no recommendations were made in this
report, the Treasury Inspector General for Tax Administration has made prior recommendations
that continue to provide benefits. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 601 taxpayers potentially affected (see page 5).

Methodology Used to Measure the Reported Benefit:
We reviewed:
    •   From the Automated Collection System,1 approximately 2.6 million cases open as of
        October 2006 from a database with history action dates between October 2005 and
        September 2006 and identified 5 taxpayer case narratives that contained ITP or a similar
        designation.
    •   From Desktop Integration,2 approximately 46.3 million open records with history action
        dates between October 2005 and September 2006 and identified 278 taxpayer case
        narratives that contained ITP or a similar designation.
    •   From the Integrated Collection System,3 approximately 563,000 cases open as of
        October 2006 with history action dates between October 2005 and September 2006 and
        identified 292 taxpayer case narratives that contained ITP or a similar designation.
    •   From the Taxpayer Advocate Management Information System,4 a total of 48,513 open
        cases with history action dates between October 2005 and September 2006 and identified
        4 taxpayer case narratives that contained ITP or a similar designation.


1
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
2
  Provides employees access to multiple IRS systems through their computers and allows for inventory management,
case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and electronic
referral generation.
3
  A system used by Collection function employees to report taxpayer case time and activity.
4
  An electronic database and inventory control system used by Taxpayer Advocate Service employees.
                                                                                                       Page 15
                      Fiscal Year 2007 Statutory Audit of Compliance With Legal
                      Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



    •   From the Taxpayer Information File,5 a total of 109,877 open records with history action
        dates between October 2005 and September 2006 and identified 22 taxpayer accounts
        that contained ITP or a similar designation in the Activity Code field.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; one unique ITP reference in the IRM6 (see page 4).

Methodology Used to Measure the Reported Benefit:
We searched the various formats of the IRM available to IRS employees for ITP references. As
of February 2007, one unique ITP reference was still in the IRM. This reference had been
identified and brought to the attention of IRS management during our previous two audits.




5
  Provides tax account information for taxpayers selected for the Integrated Data Retrieval System (the IRS
computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records).
6
  A manual containing the IRS’ internal guidelines.
                                                                                                          Page 16
     Fiscal Year 2007 Statutory Audit of Compliance With Legal
     Guidelines Prohibiting the Use of Illegal Tax Protester and
                        Similar Designations



                                                      Appendix V

Management's Response to the Draft Report




                                                             Page 17
